  Increasing Lender Liquidation 

        Responsibility in the 

Section 7(a) Business Loan Program


            April 1997





     Inspection Report
           No. 97-04-02




    Office of Inspector General
U.S. Small Business Administration
                               TABLE OF CONTENTS


                                                                                         Page

EXECUTIVE SUMMARY	                                                                         iii



PARTS

BACKGROUND                                                                                  1


OBJECTIVE, SCOPE, AND METHODOLOGY                                                           3


CONCLUSIONS


     1.	    Existing controls in the liquidation process should adequately protect         5

            the interests of the Government, if consistently and effectively applied.


     2.	    SBA currently does not take full advantage of lender liquidation                8

            capabilities.


RECOMMENDATIONS	                                                                           12



APPENDICES

A.   Characteristics of SBA Districts Visited                                              15


B    Characteristics of Lenders Visited                                                    16


C    Office of Financial Assistance Comments                                               17


D    Contributors to This Report                                                           19





                                             i
                     ABBREVIATIONS



CLP     Certified Lenders Program
CFR     Code of Federal Regulations
FDIC    Federal Deposit Insurance Corporation
LIP     Liquidation Improvement Project
NADCO   National Association of Development Companies
NAGGL   National Association of Government Guaranteed Lenders
OFA     Office of Financial Assistance
OIG     Office of Inspector General
OIRM    Office of Information Resource Management
OMB     Office of Management and Budget
PLP     Preferred Lenders Program
SBA     Small Business Administration
SBLC    Small Business Lending Company
SOP     Standard Operating Procedure
UCC     Uniform Commercial Code




                              ii
                                  EXECUTIVE SUMMARY


                                   Purpose and Background

The Office of Inspector General (OIG) initiated this inspection out of concern that increased loan
volume and decreased staffing may diminish SBA’s capability to monitor and perform loan
liquidations. The inspection’s objective was to examine the lenders’ role in the liquidation
process and explore the potential for increasing their responsibility for liquidating SBA loans.

Under Section 7(a) of the Small Business Act, the Small Business Administration (SBA)
guarantees loans made by private lenders, i.e., banks and Small Business Lending Companies
(SBLCs), to small business borrowers who cannot obtain credit elsewhere on reasonable terms
and conditions. The Section 7(a) program has increased dramatically in recent years. The
number of Section 7(a) loans approved each year more than tripled between FY 1990 and FY
1996, from 10,848 to 45,845. Over the same time period, the number of SBA employees
decreased from 4,120 to 3,054. The increase in workload combined with the decrease in staff is
straining an already overburdened SBA liquidation workforce. Even if default rates for the
Agency remain unchanged, the number of loan liquidations can be expected to rise because of
the increase in the number of guaranteed loans.

The inspection team examined the lenders’ role in the liquidation process and compiled the
arguments for and against increasing lender liquidation responsibility. We performed an
extensive review of the current legislation, regulations, and standard operating procedures (SOPs)
governing the liquidation process. The team conducted interviews with SBA officials at 11
district offices and, with the assistance of Agency officials, identified 17 SBA lenders for our
sample. The lenders varied by size, geographic location, small business lending focus, and type
(bank or SBLC). We then obtained their views on the respective roles of the Agency and lenders
in the liquidation process.

Generally, a loan is transferred to liquidation status when it becomes apparent that the borrower
cannot repay or if insolvency proceedings have been initiated. Once a lender has asked SBA to
honor its guaranty, it is the Agency’s policy to have the lender service and liquidate the loan. If
SBA chooses to handle these responsibilities itself, the lender must assign the loan to the Agency.
Lenders participating in the Preferred Lenders (PLP), LowDoc, and FA$TRAK programs are
required to liquidate all of their 7(a) loans with minimal involvement by SBA. The liquidation
activity of lenders in the Certified Lenders Program (CLP) and general loan program is monitored
more closely by SBA.

                                          Conclusions

Based on the information gathered during the inspection, the team has reached the following
conclusions:



                                                iii
1. 	 Existing Controls in the Liquidation Process Should Adequately Protect the Interests
     of the Government, If Con sistently and Effectively Applied. SBA has in place a number
     of regulations, SOPs, and other controls that encourage lenders to obtain maximum recoveries
     or allow SBA to take action against lenders for negligent liquidation actions. Controls
     include the requirement of a lender liquidation plan, a reduced guarantee percentage on 7(a)
     loans as an incentive for recoveries, the ability to deny or repair SBA’s guarantee liability,
     special requirements for participation in the certified and preferred lender programs, and laws
     outlined in the Uniform Commercial Code governing the sale of some collateral. The lenders
     in our sample believe that these measures provide appropriate incentives and disincentives
     and effectively safeguard SBA’s interests when they are objectively and uniformly applied.

2.	 SBA Currently Does Not Take Full Advanta ge of Lender Liquidation Capabilities . We
    believe that SBA should no longer be involved in a step-by-step transactional liquidation role
    for PLPs and CLPs, especially in light of the Agency’s reduced resources. Instead, it needs
    to commit its resources to effective monitoring of their activities. This approach would make
    more efficient use of SBA resources while also alleviating the pressure from Congress and
    lender associations to give more authority to lenders to liquidate their SBA loans.

   At the district level, two distinct and equally entrenched points of view exist about how much
   responsibility lenders should be given to liquidate loans. Some districts give lenders a great
   deal of latitude, while others have adopted a more conservative approach, often making many
   of the liquidation decisions themselves. Inconsistencies among district offices often confuse
   and frustrate lenders seeking guidance on liquidation policies and procedures. SBA
   recognizes this problem and is addressing it with policy notices intended to encourage greater
   consistency. SBA is also making an effort to upgrade information systems for monitoring.

   The OIG inspectors also found strong differences of opinion between lenders and SBA
   officials regarding the ability of lenders to take on more liquidation responsibility and to
   maximize recoveries. Most agency officials expressed doubt regarding lender liquidation
   capabilities, while most lenders stressed their advantages. Because of deficiencies in
   performance data on individual lenders, district officials are seriously hampered in assessing
   their lenders’ ability to handle their liquidation responsibilities.

   There appear to be no compelling reasons for keeping PLP and CLP lenders from assuming
   full responsibility for liquidating their SBA-guaranteed loans, as mandated by legislation. All
   credible lenders have procedures for loan liquidation and banks are regulated by Federal and
   State agencies which require liquidation procedures. Further, PLP and CLP lenders are
   reviewed by SBA for their ability to liquidate when they apply to the programs.

                                       Recommendations

Based on these conclusions, we recommend that the Associate Administrator for Financial
Assistance:


                                                iv
1.	 Develop policies to refocus SBA’s efforts away from direct involvement in liquidation
    activities and toward improved monitoring of PLP and CLP performance.

2.	 Use the new decision-making authority given to PLPs and CLPs to conduct a test of a
    “hands-off” liquidation policy.

3.	 Create a reliable method for collecting data to measure individual lender liquidatio n
    performance.


                                       SBA Comments

The Acting Associate Administrator for Financial Assistance agreed with the report’s conclusions
and indicated that steps have already been taken to carry out the recommendations. The Office
of Financial Assistance (OFA) has begun to implement the requirements of the Small Business
Improvement Act of 1996, which gives PLP lenders complete authority to liquidate loans and
CLP lenders expedited approval procedures. OFA is also developing courses for SBA liquidation
personnel that “ . . . will highlight the need to enable lenders to complete their own loan
liquidations with minimal SBA involvement . . . .” OFA has also prepared a policy notice that,
once issued, should promote greater uniformity in the way district offices handle their
relationships with PLP lenders in liquidation matters. The Acting Associate Administrator agreed
that OFA needs a better automated system to oversee lender performance in loan liquidations.
She indicated that systems modifications for producing performance data will be made to the
planned Risk Management Database.




                                               v
                                         BACKGROUND


SBA guarantees loans to businesses that are unable to obtain other financing on reasonable terms
through normal lending channels. The Small Business Act of 1953 requires that all loans be of
sound value or be reasonably secured to ensure repayment. To meet the requirements of the law,
SBA and its lenders seek to secure as much collateral as necessary for loans, although inadequate
collateral cannot be the only reason for denial of a loan request. In guaranteeing loans, SBA also
emphasizes that borrowers must show their repayment ability. As a result, its loans involve a
degree of risk that must balance providing needed credit assistance with protecting the
Government’s interest. When a borrower fails to repay a guaranteed loan, SBA or the lender may
liquidate pledged collateral to obtain loan repayment. Generally, if collateral proceeds are
insufficient, SBA may pursue personal guarantees or obligations provided by business owners
or others in support of the loan.

The Section 7(a) business loan program has grown dramatically in recent years. Between FY
1990 and FY 1996, the number of Section 7(a) loans approved each year more than tripled, from
10,848 loans to 45,845. The dollar value of approved loans each year increased from $3 billion
in FY 1990 to $7.7 billion in FY 1996. At the end of FY 1996, SBA’s share of the outstanding
portfolio stood at $21 billion.

While loan volume has grown significantly, the number of SBA employees has decreased 26%,
from 4,120 in 1990 to 3,054 in 1996.1 The increase in loan volume combined with this decrease
in staff is straining the SBA liquidation workforce. Even if default rates remain the same, the
number of loan liquidations will still rise because of the increase in guaranteed loans. The Office
of Management and Budget (OMB) emphasized in its 1997 “budget guidance” letter to the SBA
Administrator that “the recent substantial increases in your loan program will likely result in an
expanded portfolio of defaulted and repurchased loans in a period where Government resources
are declining.” Accordingly, OMB requested that SBA management consider all available
options to meet the challenges created by such rapid portfolio growth.

According to regulations, “SBA or the lender may liquidate collateral securing a loan if the loan
is in default or if there is no reasonable prospect that the loan can be repaid within a reasonable
period.”2 Generally, loans are transferred to liquidation status when it becomes apparent that the
borrowers cannot repay. Loans must also be placed into liquidation if any type of insolvency
proceedings, such as foreclosure, bankruptcy, or receivership, have been initiated or if collateral
has been abandoned by the borrower. Once a lender has asked SBA to honor its guaranty, it is
the Agency’s policy to have the lender service and liquidate the loan. If SBA chooses to handle
these responsibilities itself, the lender must assign the loan to the Agency



       1
        These figures exclude employees funded by separate disaster assistance appropriations.
       2
        Federal Regulations (13 CFR § 120.540(a))

                                                  1

Lenders participating in the Preferred Lenders (PLP), LowDoc, and FA$TRAK programs are
required to liquidate all of their 7(a) loans with minimal involvement by SBA. The liquidation
activity of lenders in the Certified Lenders Program (CLP) and general loan program is monitored
more closely by SBA. As of September 30, 1996, there were approximately 7,000 active SBA
lenders, including 387 PLP and 627 CLP lenders.3 In FY 1996, approved PLP and CLP loans
together accounted for 31% of the number and 56% of the value of SBA guaranteed loans.

During the inspection, the Office of Financial Assistance (OFA) began an internal review of
SBA’s liquidation processes. The Liquidation Improvement Project (LIP) is composed of two
working groups tasked with recommending improvements in SBA’s internal practices and
procedures for liquidating 7(a) loans. One group is focusing on steps that field offices can take
to reduce the length of time for completing liquidations while increasing recoveries. The second
group is looking into automated systems for improving data collection and reporting. It was not
within the scope of this inspection to assess these initiatives; nevertheless, they appear to
complement our efforts by focusing on ways to increase efficiency in SBA’s internal loan
liquidation process.




       3
         Active lenders are defined by the SBA’s Office of Financial Asssistance (OFA) as those
lenders having originated at least one SBA loan over the past year.

                                                  2

                      OBJECTIVE, SCOPE AND METHODOLOGY


The Office of Inspector General (OIG) initiated this inspection in June 1996 out of concern that
increased loan volume and decreased staffing may diminish SBA’s capability to monitor and
perform loan liquidations. The inspection’s objective was to examine the lenders’ role in the
liquidation process and explore the potential for increasing their responsibility for liquidating
SBA loans. We postulated that by encouraging its best lenders to increase their responsibility,
SBA could concentrate its limited resources on resolving more complex cases and on monitoring
the lenders’ performance in liquidating their SBA loans.

As SBA’s loan volume increases, it becomes increasingly important to secure a proper balance
between the Agency’s role as loan guarantor and the lenders’ role in implementing SBA’s loan
programs. The inspection addresses these concerns in several ways. First, it examines the laws
and policies that affect lender liquidations, including recent legislation. Second, it provides an
overview of the arguments for and against giving lenders more authority to liquidate their SBA
guaranteed loans. Third, it summarizes various options available for increasing lender liquidation
responsibility in a manner that is consistent with the goals and objectives of the 7(a) program.
The widening gap between the program’s mandate and available resources provides a framework
for our analysis.

In reviewing SBA’s liquidation procedures, the inspection team used documents from OFA, the
Office of Information Resource Management (OIRM), and the Office of the Chief Financial
Officer (CFO). We also examined relevant documents from other organizations, such as the
Federal Deposit Insurance Corporation (FDIC), OMB, the National Association of Government
Guaranteed Lenders (NAGGL), and the National Association of Development Companies
(NADCO). The team conducted interviews with SBA officials at 11 district offices and with
representatives from 17 lending institutions, including 13 PLP lenders, three CLP lenders, and
one general program lender. Fourteen of the lenders were banks and three were Small Business
Lending Companies (SBLC). We also conducted an extensive review of the current legislation,
regulations, and Standard Operating Procedures (SOPs) governing the liquidation process.

To select the district offices for field visits, the team reviewed SBA-generated data on loan
liquidation volume, charge-off volume, and the ratio of bank- serviced to SBA-serviced
liquidations for 1995. Using this information, along with geographic locations, the team
developed a matrix of offices to visit. We concentrated on selecting districts with diverse data
elements to ensure a broad representation of perspectives. We also focused our attention on
districts with significant experience in liquidating loans, i.e., those that handled at least one
hundred liquidation cases in 1995. After drafting an original list of districts, the team consulted
with senior OFA officials, who recommended the addition of one district. With the additional
district, the OFA officials agreed that the list was appropriate for obtaining a range of Agency
views on the advantages and disadvantages of turning more liquidation responsibility over to
lenders. (See Appendix A for information on the districts visited for this report.)



                                                3

To ensure inclusion of a broad representation of lenders in the sample, the team considered the
asset size, loan volume over a five year period, liquidation volume over a five year period, and
participation status (PLP, CLP, or general lender) in the SBA loan program. The team consulted
with district officials to identify appropriate lenders to include in the sample. Again, the
objective was to interview lender representatives from diverse institutions to obtain their
perspectives on the potential costs and benefits of giving the lenders greater responsibility for
liquidating SBA loans. (See Appendix B for loan and liquidation data that describes the
characteristics of the lenders visited.)

All work on this inspection was conducted between June 1996 and September 1996 in
accordance with the Quality Standards for Inspections issued in March 1993 by the President’s
Council on Integrity and Efficiency.




                                               4

                                         CONCLUSIONS


1. 	 Existing Controls in the Liquidation Process Should Adequately Protect the Interests
     of the Government, If Consistently and Effectively Applied.

There are a number of regulations, SOPs, and controls currently in place which either encourage
lenders to obtain maximum recoveries or allow SBA to take action against lenders for negligent
liquidation actions. Controls include a required lender liquidation plan; a reduced guarantee
percentage on 7(a) loans; the ability to deny or repair SBA’s guarantee liability; requirements for
participation in the general, CLP, and PLP programs; and laws outlined in the Uniform
Commercial Code (UCC) governing the sale of some collateral. The lenders stated that these
factors provide effective incentives and disincentives and safeguard SBA’s interest when
objectively and uniformly applied. In addition, lender liquidation responsibility is being
expanded through recent legislation and the SBA’s revised regulations. Particularly with respect
to the PLP and CLP participants, Congress has determined that lenders should have more
authority in the liquidation process.

The following controls guide lenders in the liquidation process:

a.	 SBA Requires a Detailed Liquidation Plan.

   Any lender given liquidation responsibility by SBA is required to complete a liquidation
   plan. For lenders without the PLP or CLP designation, the liquidation plan must be
   approved by SBA before any action is taken. The Small Business Improvement Act of
   1996 gives PLP lenders complete authority to liquidate loans without obtaining the prior
   approval of SBA. CLP lenders are given automatic approval if a plan has not been
   approved or denied within a specified length of time.

   SBA’s standardized liquidation plan provides the Agency with information on why a loan
   should be transferred to liquidation status, the cause of the business breakdown, a
   proposed recovery plan, and an estimate of the value of recovery and expenses, including
   attorney fees.

b.	 Non-guaranteed Portion of the Loan Gives the Lender a Stake in the Outcome.

   In FY 1996, SBA reduced the guarantee percentage to 75 percent on all general business
   loans over $100,000 and to 80 percent on loans of $100,000 or less,4 making lenders liable
   for a larger portion of their loans. A number of lenders and SBA officials stressed that
   liability for the unguaranteed portion of a loan is a strong motivation for achieving maximum


       4
         The only exception to the 80 percent guarantee limit is for the Export Working Capital Loans
(EWCP). The Small Business Improvement Act of 1996 raised the guaranty amount for EWCP loans
to 90 percent.

                                                   5
   recoveries.


c. SBA Can Deny Liability or Reduce Guaranty.

   Federal regulations state that SBA is released from liability on its guarantee when the lender
   has failed to liquidate a loan in a prudent manner.5 Denial of liability is pursued only when
   all other efforts to correct problems have failed. The SOPs state that SBA should explore all
   other options for resolving the problem including a reduction of the guaranty (“repair”) or a
   voluntary cancellation of the guaranty by the participant. While denial of liability is used
   infrequently, it can provide an incentive for program participants to responsibly manage and
   liquidate their SBA loans.

d. Participation in the Preferred and Certified Lender Programs is Selective.

   SBA operates two special programs within its 7(a) loan guarantee program: the CLP and the
   PLP. For CLP participants, loan applications and servicing actions are given priority by SBA
   loan officers. In exchange for quicker service, the lenders are required to close, service, and,
   in some cases, liquidate SBA guaranteed loans. Participants in the PLP program are
   authorized to “. . . process, close, service, and liquidate SBA guaranteed loans with reduced
   requirements for documentation to and prior approval by SBA.”6

   A number of lenders indicated that preferred lender status provides a strong incentive to
   efficiently liquidate SBA loans. For example, one PLP participant stated that it was proud
   to be a PLP lender and wanted to keep the special designation. A district official confirmed
   that because many lenders seek PLP status, it is an effective incentive in making sure lenders
   efficiently liquidate their SBA loans. The official felt that SBA should do more to monitor
   the performance of lenders given the authority to liquidate loans and use the PLP or CLP
   designation as a tool to keep lenders focused on the interests of SBA.

e. The Uniform Commercial Code (UCC) Provides Rules for Selling Some Collateral.

   A lender can be sued by a borrower if the latter can show that the lender acted in a
   commercially unreasonable manner regarding the disposition of non-real estate collateral.
   Article 9-504 of the UCC states “[A] sale or other disposition may be . . . at any time and
   place and on any terms but every aspect of the disposition including the method, manner,
   time, place and terms must be commercially reasonable [emphasis added].” Rulings
   involving Article 9-507 reiterate that a debtor has the right to recover any losses caused by
   an unreasonable sale, provided a debtor who has defaulted can show that repossessed


       5
           Federal Regulations (13 CFR § 120.524).
       6
           Ibid, § 120.450.

                                                     6

        collateral was sold for less than fair market value.7 A lender can be held financially
        responsible for the difference between the fair market value of the collateral and the proceeds
        received from the sale. One lender interviewed cited the UCC as a motivation for maximizing
        recoveries.

In the Small Business Improvement Act of 1996, Congress took steps to strengthen the role of
PLP and CLP participants in the liquidation process.         The Act stated that PLP lenders are
delegated “. . . complete authority to service and liquidate such loans without obtaining prior
approval of the Administration for routine servicing and liquidation activities . . . [emphasis
added].”8 Lenders are limited only if there is an actual or apparent conflict of interest. A
provision was also added to permit CLP participants to liquidate loans “. . . pursuant to a
liquidation plan approved by the Administrator.”9 The Act specifies that if a liquidation plan is
not approved or denied within 10 business days from the date the request is made (or within 5
days for any routine liquidation activity), the plan is automatically approved. OFA plans to
incorporate these changes into the SOPs and to provide district officials with policy guidance for
applying these new provisions.

SBA’s own regulations make the role of lenders in liquidating loans less clear. They state that
one of the requirements for all participating lenders is the ability to process, close, service and
liquidate loans. While the wording implies that all lenders are deemed capable of liquidating
their SBA loans, other language is more ambiguous: “. . . generally, after SBA honors its
guarantee, the lender must continue to hold the Loan Instruments and service and liquidate the
loan [emphasis added].”10 The regulations also state that if SBA chooses to service or liquidate
a loan, the lender must turn the loan over to SBA.




           7
         Uniform Commercial Code, § 9-507, note 53 - Contrail Leasing Partners, Ltd. v. Consolidated
Airways, Inc., 742 F.2d 1095 (7th Cir. 1984); and note 56 - Bank of China v. Chan, 937 F.2d 780 (2nd
Cir. 1991).
           8
               PL 104-208, Title 1 of Division D, the Small Business Improvement Act of 1996, § 103 (a)
(II).
           9
               Ibid, § 103 (C) (ii)
           10
                Federal Regulations (13 CFR § 120.512).


                                                          7

2. SBA Currently Does Not Take Full Advantage of Lender Liquidation Capabilities .

It is the Agency’s policy to encourage lenders to liquidate their SBA defaulted loans.11 As
previously mentioned, regulations, SOPs, and other safeguards already provide guidance and
protect taxpayers from any lender who does not liquidate collateral efficiently. To protect the
public interest, SBA has the authority to take over servicing when a situation, such as a conflict
of interest or a complicated liquidation, warrants such action. Furthermore, SBA has the
authority to deny liability or to repair the guaranty if the lender has failed to comply materially
with any of regulations, Loan Agreement, or Authorization; failed to make, close, service, or
liquidate a loan in a prudent manner; or misrepresented or failed to disclose to SBA a material
fact regarding the loan.12

The inspection team found no compelling reasons for keeping PLP and CLP lenders from taking
on full responsibility, as mandated by legislation, for liquidating their SBA loan portfolio. With
few exceptions, lenders who make commercial loans as part of their business should be equipped
to liquidate those loans. Inherent in every loan is a risk of default and liquidation and, as some
lenders pointed out, all credible lenders have procedures for loan liquidations. Further, bank
lenders are regulated by Federal and State agencies that require written liquidation procedures,
and there is increasing pressure from lender associations and the Congress to give more authority
to program participants to liquidate their own loans. Given the existing authority in SBA
regulations, the substantial increase in 7(a) loan volume in recent years, and the reduction in SBA
staff available to liquidate loans, district officials appear to have strong incentives for providing
PLP and CLP lenders with every opportunity to liquidate their SBA guaranteed loans. The OIG
inspection team believes that PLP and CLP lenders should not be burdened with proving their
ability to liquidate loans on a case-by-case basis because that ability is a requirement for
becoming a CLP or PLP participant in the first place.

Lenders interviewed during the inspection stressed their frustration with SBA practices that
require approval from the district for each step in the liquidation process--including actions taken
after the liquidation plan was approved. This was particularly true of PLP participants who,
according to the Agency’s regulations, “. . . must liquidate any SBA guaranteed defaulted loan
in its portfolio.”13 The lenders asserted that filing a liquidation plan is useful, but protracted
delays in obtaining SBA approval often prove costly because of the increased opportunity for
collateral to be lost or damaged. In addition, they noted inconsistencies at the district level in
determining how much liquidation responsibility should be given to lenders, including PLP and
CLP lenders. A typical example of what appears to be an excessive transactional role by SBA
was provided by a PLP participant who has been required by the district office to obtain
permission for each liquidation action, even after the plan has been approved. While the lenders

       11
         Ibid.
       12
         Ibid, §120.524.
       13
         Ibid, § 120.453.

                                                 8

we spoke with overwhelmingly supported expanding their role in the liquidation process, they
stressed that this authority should only be given to lenders with a proven track record in loan
underwriting and recovery.

Two distinct points of view appear to exist in SBA’s district offices with regard to how much
responsibility lenders should be given to liquidate loans. Some districts give lenders a great deal
of latitude in liquidating their own loans; others stress close control over liquidation activities,
requiring lenders to seek SBA approval for each step in the process. This inconsistency among
district offices confuses and frustrates lenders seeking guidance on what is expected of them
when they liquidate a loan. Further, lenders that deal with more than one district are subject to
differing liquidation rules. PLP and CLP lenders argue that having to wait for permission at each
step causes unnecessary delays that can be detrimental to recovery; they assert that moving
quickly in a liquidation affords the greatest possibility for a high recovery. For example, one
lender stated that waiting for approval to liquidate can result in lost inventory. Moving in fast
and taking possession of inventory or other collateral protects it from “walking out the back door”
and produces higher recoveries for both the lender and SBA.

The inspection team found strong differences of opinion between various district officials and
lenders regarding the willingness and ability of lenders to take on more liquidation responsibility
and to maximize recoveries. For example, some district officials believe that smaller lenders and
those with low loan and liquidation volume do not have the staff or the expertise to efficiently
liquidate SBA loans. SBA rules and regulations are complex, and these officials believe that
unless a lender is constantly exposed to the process, it will not be effective in liquidating loans.
Alternatively, smaller lenders interviewed contended that their size is an advantage because it
allows them to maintain close contact with small business borrowers and monitor their business
activity closely. Moreover, they asserted that they are aware of how losses, no matter how small,
affect profitability. Some lenders did agree that with a low volume of liquidations, more direction
from SBA may be required, but many felt that lenders should be precluded from participating in
SBA lending programs if they do not demonstrate the necessary expertise.

Another area of disagreement concerns lender motivation to maximize recoveries. Some Agency
officials believe that lenders do not have sufficient incentive once the guarantee has been paid,
so it is important that SBA closely supervise lender-serviced liquidations. Conversely, lenders
stressed that they are concerned with making a profit, which requires recovering as much as
possible of the nonguaranteed portion of a loan. They argued that working out a loan and
achieving a high recovery are more important than SBA’s emphasis on closing cases, a practice
which may detrimentally affect recoveries.14

Other reasons district officials stated for exercising tight control of much of the liquidation
process include the following:


       14
         SBA has adopted a new policy that encourages districts to close cases within twelve months-­
and within eighteen months if litigated.

                                                  9

       There is a substantial amount of turnover in private lender staff. District officials
       pointed out that it is really individuals--not their lending institutions--who develops
       skills in liquidating loans. Bank mergers, employee promotions, and job transfers
       make it difficult for SBA to accurately gauge an institution’s capability to liquidate
       loans at any given time.

       Some lenders are reluctant to take on more responsibility for liquidating loans.
       Because of the cost and time involved in liquidating, they prefer to have the Agency
       liquidate their SBA loans.

       Lenders are constantly looking for advice from the Agency--fearing that any mistake
       they make will result in the loss of a loan guarantee. As a result, too often the SBA
       liquidator then ends up handling the liquidation process.

Lenders countered these arguments by pointing out advantages that they have over the Agency
in liquidating SBA loans:

       Many lenders have established branch systems that allow many of them to develop
       an in-depth knowledge of the community and their customers. This serves as an early
       warning system for potential problems with a particular loan. Lenders with a network
       of branches believe they are in a better position to work out and, if necessary,
       liquidate SBA loans than are Agency officials located in a district office.

       Lenders’ smaller caseloads allow them to move more quickly on liquidations.
       Currently, many SBA liquidators’ caseloads are very large--some are handling over
       100 cases apiece. According to both SBA and lender officials, this workload results
       in slow response times in the approval of lender liquidation actions.

       Lenders have the ability to hire outside contractors, if needed, to speed up the
       liquidation process and provide flexibility in obtaining legal services. SBA has to use
       U.S. Attorneys on loan liquidations. According to an SBA attorney, among others,
       their caseloads are usually heavy and SBA liquidation cases are not a high priority.
       This can slow the liquidation process and result in lower recoveries.

       Lenders in the PLP and CLP programs have made commitments to the SBA. By
       liquidating collateral in a timely and efficient manner, they can demonstrate their
       ability to maintain their sought-after status as Certified or Preferred lenders.


While substantially increasing lender responsibility for liquidations appears both practical and
necessary, turning over full authority may not be a prudent policy in all cases. Currently, SBA
has no systems in place to review a lender’s aggregate performance, assess its success as
liquidators, or establish sanctions for poor performance.


                                               10

SBA is gathering data on lender liquidations, but the information currently available on individual
lenders is incomplete. For example, there is no reliable data available from either SBA or the
lenders that tracks the performance of individual lenders in the liquidation process. An April 19,
1996, Liquidation Improvement Project Team report confirmed that “. . . data problems [at SBA]
exist. The agency has no idea whether costs (e.g., bank’s, environmental [impact studies],
appraisals, auctioneers, etc.) are fair or not.” Lender data provided to the inspection team was
also inconsistent in terms of detail and quality.

Because of these deficiencies in performance data, district officials are hampered in their ability
to assess lenders’ handling of their liquidation responsibilities. Until a system is in place to
measure their effectiveness, it may be imprudent to turn full liquidation authority over to general
program lenders. Both PLP and CLP lenders have been reviewed by the Agency through both
the application process and periodic monitoring.15 Therefore, if they are not capable of
liquidating SBA loans, we believe they should not remain in either program. General program
lenders have not gone through a comparable review process, and their ability to liquidate has not
been examined. While SBA should continue to carefully monitor their liquidation activities, it
would be advisable for the Agency to explore ways to increase the general lenders’ role in the
liquidation process.




       15
         PL 104-208 requires SBA to establish a standard review program for preferred
lenders. This review will consist of annual assessments of lender loans, defaults, and
recoveries of loans. This review is also to be used for new entrants to the program. Current
SOPs require a biennial review of preferred lenders.

                                                11

                                   RECOMMENDATIONS


We recommend that the Associate Administrator for Financial Assistance:

   1.	 Develop policies to refocus SBA’s efforts away from transactional liquidatio n
       activities and toward improved monitoring of PLP and CLP liquidatio n
       performance.

   2.	 Use the new decision-making authority given to PLPs and CLPs to conduct a tes t
       of a “hands-off” liquidation policy.

   3.	 Create a reliable method to measure individual lender liquidation performance.

SBA no longer has the resources to continue to approve each liquidation action for all SBA- and
lender-serviced liquidations--even if it were a desirable function for SBA to perform. Agency
officials and lenders both stressed that SBA liquidator workloads are currently too large to be
handled effectively. For example, four out of the six Agency liquidators with whom we spoke
had one hundred or more cases. Reduced clerical staffing has increased the amount of paperwork
liquidators must complete, and the problem is likely to grow in the future as the liquidation
volume expands and staffing levels remain constant or decrease. Delays resulting from heavy
Agency workloads frustrate lenders and may reduce recoveries. Also, U.S. Attorneys often
cannot find time to handle SBA liquidation cases. While no data was available on how long it
takes for U.S. Attorneys to litigate such cases, an SBA attorney provided several examples of
cases sent to U.S. Attorneys for prosecution that were ignored because of standing backlogs and
prosecutorial priorities.

With respect to PLP and CLP lenders, we believe that SBA should move aggressively away from
its traditional transactional liquidation activities and instead focus its limited resources on more
effective monitoring of lender liquidation activity, intervening only when serious problems are
indicated. This approach would require the Agency to develop and implement objective criteria
for measuring lender performance, e.g., purchase rates, recovery rates, timeliness, and the costs
of liquidation, including any legal expenses. While this plan would also require more uniform
implementation of policies by the districts than currently exists, the main benefit would be a more
efficient use of both SBA and lender resources. It would also facilitate a decrease in the
workload of SBA liquidation staff to more reasonable levels and allow the staff to apply their
knowledge and experience in a way that would better protect taxpayer dollars. The PLP and CLP
lenders should feel less encumbered in performing their liquidation responsibilities, but they
would also be held more accountable through SBA’s aggressive monitoring.

SBA liquidator efforts could be redirected to performing functions that promote efficiency in
lender liquidations. For example, instead of being assigned cases individually, liquidation staff
could be given a portfolio of lenders in their district to monitor and be required to visit each
lender periodically to examine a sample of liquidation cases for compliance. They could also be
responsible for reviewing a final status report on each liquidation case to ensure that baseline

                                                12

liquidation recovery levels are maintained.

The OIG inspection team found that there is no system currently in place to track the ability of
individual lenders to liquidate SBA loans. Inconsistencies in how program policies are carried
out at the district level hinder efforts to determine the overall effect of lenders taking on greater
liquidation responsibilities. The absence of information on liquidation performance may also
impede SBA in measuring the impact of internal efforts to promote efficiency. The current
Congressional mandate to turn over full authority to PLP lenders and expand the authority of
CLPs provides an excellent opportunity for SBA to begin measuring the ability of SBA’s most
trusted lenders to liquidate their bad loans. According to a number of lenders, the intervention
by district offices that insist on approving each step of the liquidation process has created
unnecessary delays in many of the liquidation efforts of PLPs. At this point, no one can estimate
with any certainty the impact on recoveries if preferred lenders were given full, and CLPs
expanded, authority to liquidate loans. Developing procedures to implement the new legislation
provides SBA an opportunity to establish consistent directives at the district level to encourage
lenders to achieve maximum recoveries in the minimum about of time.

If SBA moves away from transactional activities, i.e., reduces its intervention in the lenders’
liquidation operations and converts more of its liquidation activity to a monitoring function, the
Agency will need to collect data that tracks each lender’s performance in liquidating loans.
While the Small Business Improvement Act of 1996 requires SBA to collect a variety of data on
its guaranteed loans, no mention is made of monitoring the costs of lender liquidations.16 Yet,
we found this to be one of the primary concerns expressed by SBA officials. The Agency
requires liquidation plans to include estimates of costs and instructs SBA officials to review and
determine the reasonableness of these expenses. SOPs also direct a lender to obtain SBA’s
approval before proceeding with major changes in a plan, including expenses. Because cost
information is only examined on a case-by-case basis, the information cannot be used for
evaluative purposes. Aggregate collection and tracking of detailed cost information would allow
SBA to determine average liquidation costs and to identify those lenders with abnormally high
costs.

OFA plans to require each lender liquidating an SBA loan to submit a “wrap-up” report that will
summarize the results of the liquidation. The report will include an accounting of all recoveries
and expenses, copies of site visit reports, a copy of the initial lender liquidation plan, an
explanation of how collateral was liquidated, and detailed information supporting legal fees. This
information will provide SBA the opportunity to develop a profile on individual lender
liquidation performance and track lenders’ aggregate liquidation activities. Capturing this
information will facilitate meeting the data collection requirements of the Small Business Act
amendments, as well as those of the Government Performance and Results Act. It could also


        16
          Section 102 of the Small Business Improvement Act of 1996 requires SBA to establish a
database capable of providing timely and accurate information in order to identify loan underwriting,
collections, recovery, and liquidation problems.

                                                   13

provide important performance measures for use in determining which lenders need closer
monitoring. The OIG is prepared to assist the Agency in additional efforts to gather meaningful
data by designing a pilot test to determine the recovery rates and expenses over a set time period
of a sample of PLPs given full responsibility for their liquidations.

Final Comments

The OIG inspection team was impressed with the knowledge and dedication of both the SBA
officials and lender representatives we contacted and was also struck by how well many SBA
liquidators are managing such large caseloads. Each liquidation case is different and involves
a set of complex factors including legal considerations, monetary constraints, and policy goals.
Consequently, the team believes that SBA liquidators can continue to provide critical services
in a role that focuses on monitoring PLP and CLP liquidations, rather than continuing direct
operational responsibilities for such activities.

While we have not attempted a detailed analysis of SBA liquidation workloads, it appears that
most, if not all, of the existing staff could be engaged in the monitoring and troubleshooting tasks
required of effective policy implementation by the Agency. There appears to be room for
building greater efficiency into the liquidation process, particularly in expanding the role of
SBA’s lending partners. The experience of SBA’s field liquidators and the willingness of lenders
to assume more responsibility for liquidation provide a foundation for collecting data, effectively
monitoring lenders, and consistently executing SBA liquidation policy.




                                                14

                                                                                            APPENDIX A

                                            SBA District Characteristics


This table describes liquidation activity in the six districts visited by the inspection team.

                                                                                   b
           District                Liquidation              Charge-Off Volume                Ratio of Servicing
                                    Volume a                                                 (SBA %/Bank %) c

    Augusta, ME                          68                           185                          50/50

    Boston, MA                          202                            49                           96/4

    Chicago, IL                         196                            59                          37/63

    Dallas, TX                          226                            57                          59/41

    Los Angeles, CA                     614                            26                          70/30

    San Francisco, CA                   494                            49                          53/47




This table describes liquidation activity in districts consulted for background and supporting information.

                                                                                   b
           District                Liquidation              Charge-Off Volume                Ratio of Servicing
                                    Volume a                                                 (SBA %/Bank %) c

    Birmingham, AL                       76                            41                          100/0

    Denver, CO                           88                            21                          86/14

    Clarksburg, WV                       27                            16                          12/88

    Montpelier, VT                       96                            57                          19/81

    San Diego, CA                       125                           32                           34/66


a
    Liquidation volume represents the number of loans in liquidations as of 4/1/96. Source: Office of
Financial Assistance, U.S. Small Business Administration.

b
    Charge-off volume represents the number of loans charged off in FY 1995. Source: Data provided
by the Office of Resource Information Management, U.S. Small Business Administration.
c
   Calculated from FY 1995 data provided by the Office of Resource Information Management, U.S.
Small Business Administration.




                                                          15

APPENDIX B

                                      LENDER CHARACTERISTICS

The inspection team asked the 14 lenders we visited to characterize their experiences with bank-serviced SBA
loan liquidations. The intent was to obtain information that described our sample.

Number of SBA loans originated by each lender
in the last 5 years (includes 7(a) and Low Doc)
 YEAR               1991              1992               1993               1994               1995

  AVERAGE           47.73             56.25              55.67              72.42              85.17


Number of SBA loans liquidated by each lender
in the last 5 years (includes 7(a) and Low Doc)
 YEAR               1991              1992               1993               1994               1995

 AVERAGE            2.55              3.09               5.73               4.36               6.18


Average time it takes to complete a
bank-serviced SBA loan liquidation
 AVERAGE (in months)                                     9.25


Number of lender staff assigned to
small business liquidations
 AVERAGE SIZE OF STAFF PER LENDER                        3.75


Lender cost as a percent of
total liquidation cost
                    1991              1992               1993               1994               1995

 Attorneys          69.40             61.2               44.50              34.83              40.43

 Environmental      6.40              7.40               6.17               10.50              1.29
 Report

 Appraisers         5.80              6.80               23.00              4.67               7.14

 Auctioneers        0.00              1.60               4.83               7.17               5.00

 Taxes              2.40              5.80               0.17               3.83               1.00

 Utilities          0.00              0.00               2.67               0.83               7.00

 Other              16.00             17.20              18.67              21.50              23.14




                                                      16

